Nos. 20A11 AND 20-23
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MARK O’KEEFE & DALE HARTKEMEYER (AKA SEIGEN), PETITIONERS
AND APPLICANTS
v.
WILLIAM P. BARR, ET AL.
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION TO APPLICATION FOR
STAY OF EXECUTIONS AND TO PETITION FOR A WRIT OF CERTIORARI, via email, this 15th day of July 2020.
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,482 words
Excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury, that the foregoing is true and correct. Executed on July 15, 2020.
[See Attached Service List]
Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 15, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: O’KEEFE, ET AL. V. BARR, ET AL.

DOUGLAS HALLWARD-DRIEMEIER
ROPES & GRAY LLP
2099 PENNSYLVANIA AVE.
WASHINGTON, DC 20006
DOUGLAS.HALLWARD-DRIMEIER@ROPEGRAY.COM

MICHAEL M. KRAUSS
GREENBERG TRAURIG LLP
90 SOUTH SEVENTH STREET
SUITE 3500
MINNEAPOLIS, MN 55402

KYLE R. FREENY
GREENBERG TRAURIG LLP
2100 L STREET, NW
STE. 1000
WASHINGTON, DC 20037

ABIGAIL A. CLAPP
GRREENBERG TRAURIG LLP
77 W. WACKER DR., SUITE 3100
CHICAGO, IL 60601

EDWARD C. WALLACE
GREENBERG TRAURIG LLP
200 PARK AVE.
NEW YORK, NY 10166

DAVID D. COLE
DAVID C. FAITH
DANIEL MACH
HEATHER L. WEAVER
JENNIFER WEDEKIND
ACLU FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005

CASSANDRA STUBBS
AMY FLY
ACLU FOUNDATION
201 W. MAIN STREET
SUITE 402
DURHAM, NC 27701

